SUPREME COURT OF NEW JERSEY
C-672 September Term 2019
083743
Dorothy Moore,
Appellant-Petitioner,
V.

Board of Review,
Department of Labor,
Respondent-Respondent,

MAR 13 2020
CLERK

ORDER

and
Bergen Regional
Medical Center, LP
Respondent.

A petition for certification of the judgment in A-004382-17
having been submitted to this Court, and the Court having considered the
same;
It is ORDERED that the petition for certification is denied.

WITNESS, the Honorable Stuart Rabner, Chief Justice, at Trenton, this
10th day of March, 2020.

CLERK OF THE SUPREME COURT

\

NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
This opinion shall not "constitute precedent or be binding upon any court." Although it is posted on the
internet, this opinion is binding only on the parties in the case and its use in Other cases is limited. R. 1:36-3.

SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-4382-17T4
DOROTHY MOORE,
Appellant,
v.
BOARD OF REVIEW,
DEPARTMENT OF LABOR,
and BERGEN REGIONAL
MEDICAL CENTER, LP,
Respondents.
Submitted October 17, 2019 - Decided October 31, 2019
Before Judges Whipple and Mawla.
On appeal from the Board of Review, Department of
Labor, Docket No. 077,190.
Dorothy Moore, appellant pro se.
Gurbir S. Grewal, Attorney General, attorney for
respondent Board of Review (Melissa Dutton Schaffer,
Assistant Attorney General, of counsel; Alexis F.
Fedorchak, Deputy Attorney General, on the brief.)

Respondent Bergen Regional Medical Center has not
filed a brief.
PER CURIAM
This matter returns after a remand to the Board of Review (Board). Claimant
Dorothy Moore appeals from the April 17,2018 final agency decision of the Board
affirming the February 21, 2018 decision of an Appeal Tribunal (Tribunal), which
held claimant was ineligible for benefits from November 1, 2015, through October
29, 2016, under N.J.S.A. 43:21-4(c)(l). We affirm.
Moore worked for Bergen Regional Medical Center as a patient account
management representative from April 24,2006, until September 25,2015. She was
a representative of the union and often walked to work because it was near her house.
However, after death threats were leveled against Moore and her family over a
custody dispute, she resigned her position unexpectedly and moved out of state.
Before leaving, she filed a police report.
Once settled in her new home out-of-state, Moore filed for unemployment
benefits on November 1, 2015, and submitted a total of four job applications online
between then and January 2016. The Deputy for the Director of the Division of
Unemployment Insurance denied her application for unemployment benefits on
December 3, 2015, finding Moore left work voluntarily without "good cause
attributable to the work."
2

A-4382-17T4

Moore appealed to the Tribunal and participated in the telephonic hearing
conducted on January 12, 2016. At the telephonic hearing, Moore testified the
reason she left her job was because "on September 28th, in the middle of the night"
she, her son, and her grandchildren "packed up and ... left [her] home" because her
grandchildren's mother made "death threats" against her and her family after Moore's
son, who lived with Moore, was awarded custody of the children. According to
Moore, although the children's mother had never resided with her on a permanent
basis, she lived with Moore for "a little more than a year off and on" before the
children were bom. The death threats were under investigation by police in her
former New Jersey town; Moore testified that she sent a copy of the police report to
the unemployment office, and she agreed to send another copy to the Tribunal
examiner.
N.J.S.A. 43:21-5(j), allows the payment of benefits to individuals who resign
from their employment "due to circumstances directly resulting from the individual
being a victim of domestic violence as defined in" N.J.S.A. 2C:25-19. However,
after reviewing her assertions and relying on the fact that the children's mother never
lived with Moore on a permanent basis, the Tribunal determined that Moore did not
qualify for benefits under subsection (j).

In its decision, the Tribunal used a

definition of a "[vjictim of domestic violence" that predated amendments to N.J.S.A.

3

A-4382-17T4

2C:25-19(d) and determined that Moore did "not meet the qualifications of [t]he
New Jersey Code [o]f Criminal Justice 2C:25-19(d) and [was] therefore not eligible
for benefits under the statute." The Tribunal affirmed the determination of the
Deputy, concluding that because Moore "left work due to personal problems which
were neither caused by her employer nor the result of the nature of the work itself,"
Moore was disqualified under N.J.S.A. 43:21-5(a) as she "left work voluntarily
without good cause attributable to such work." Moore appealed to the Board and in
a May 3,2016 decision, the Board adopted the findings of the Tribunal and affirmed
the Tribunal's decision.
We reversed and remanded because we determined Moore qualifies as a
victim of domestic violence under the current definition contained in N.J.S.A.
2C:25-19(d). Moore v. Bd. of Review. No. A-4455-15 (App. Div. Aug. 25, 2017)
(slip op. at 9). On remand, the Board was to consider whether the police report
submitted to support Moore's claim was sufficient documentation as required under ^
N.J.S.A. 43:21-50(2), as well as to reconsider her eligibility for benefits. Moore,
slip op. at 9. However, we took no position as to what impact the Tribunal's
determination that Moore's work search was "academic" would have on claimant's
eligibility for benefits, since at that time it was not the primary basis for the Board's
decision. Moore, slip op. at 9 n. 1.

4

A-4382-17T4

In September 2017, the Board remanded the matter to the Appeals Tribunal
and a new hearing was held on October 20, 2017. During that hearing, Moore
testified further as to the time period her grandchildren's mother lived with her, as
well as to her limited search for work, which included her temporary retirement
beginning on February 7,2016. The Tribunal.mailed a decision disqualifying Moore
for benefits as of November 1, 2015, pursuant to N.J.S.A. 43:21-5(a), because she

r
left work voluntarily without good cause attributable to work. Further, the Tribunal
found Moore ineligible for benefits from November 1, 2015 to October 29, 2016,
pursuant to N.J.S.A. 43:21-4(c)(1), because she was not available for work and was
not actively seeking work. Moreover, the Tribunal found Moore did not qualify as
a domestic violence victim under N.J.S.A. 2C:25-19(d) because the mother of her
grandchildren was not a "household member."
Moore appealed to the Board, and in its decision the Board remanded the case
to the Tribunal for an additional finding regarding whether or not the police report
submitted by Moore was sufficient evidence to qualify her for benefits under •
N.J.S.A. 43:21-5(j)(2). Thereafter, a third hearing was conducted on February 21,
2018. On the same day, the Tribunal held Moore ineligible for unemployment
benefits under N.J.S.A. 43:21-4(c)(l) during the relevant time period because she
was unavailable for work and had not actively sought work. The tribunal determined

5

A-4382-17T4

that even if Moore qualified as a victim of domestic violence, the work search and
availability requirements were not waived, and Moore did not meet either the
requirements of an active work search or sufficient availability for work in order to
maintain her eligibility for benefits. Moore appealed to the Board, and on April 17,
2018 the Board rejected the findings of the Tribunal as to Moore's status as a victim
of domestic violence, but adopted the conclusion of the Tribunal that Moore did not
otherwise meet the eligibility requirements under N.J.S.A. 43:21-4(c)(l). This
appeal followed.
On appeal, Moore argues it was difficult to look for work under the
circumstances of her age, health, lack of a driver's license, and her relocation to an
unfamiliar state.

She also asserts that she left her home under frightening

circumstances and did not imagine she would lose her benefits.
As in any review of a final decision of an administrative agency, we will
sustain the administrative rulings if the findings could reasonably have been reached
on substantial credible evidence in the record, considering the proofs as a whole.
Ford v. Bd. of Review. 287 N.J. Super. 281, 283 (App. Div. 1996). We give due
regard to the ability of the administrative agency to judge credibility, as well as to
the expertise of the agency. We will "reverse the decision of the administrative
agency only if it is arbitrary, capricious or unreasonable or it is not supported by

6

A-4382-17T4

substantial credible evidence in the record as a whole." Henry v. Rahway State
Prison. 81 N.J. 571, 579-80 (1980).
Although we are sympathetic to Moore's plight, we discern no error requiring
us to reverse, the Board's decision. We therefore affirm the Board's determination.
The Board's alternate basis for denying appellant's unemployment benefits was her
failure to actively seek work pursuant to N.J.S.A. 43:21-4(c)(l).

This statute

provides that an individual is not eligible for unemployment compensation unless
the individual "is able to work, and is available for work, and has demonstrated to
be actively seeking work." Ford, 287 N.J. Super, at 284 (quoting N.J.S.A. 43:214(c)(1)). As for what constitutes actively seeking work, "reading want ads and
telephoning a few places" is not enough. Guidice v. Bd. of Review, 14 N.J. Super.
335, 338 (App. Div. 1951) (citations omitted).
Here, Moore's testimony in her three administrative hearings demonstrated
she was not available for work, nor was she actively seeking work, from November
1, 2015, through February 6, 2016, other than filling out a total of four online
applications.

It was not until January 2016, two months after she applied for

unemployment benefits, that Moore began to look for work by calling employment
agencies in addition to searching online. She testified she was sixty-eight years old,
did not drive, was still afraid to go out and look for work because of the prior threats,

7

A-4382-17T4

and had even decided to retire temporarily on February 7, 2016. During the October
20, 2017 hearing, Moore confirmed to the hearing examiner she had retired as of
February 7, 2016, but that after discovering the man who threatened her was now
imprisoned for life without parole, felt safer and began sending out resumes again.
As a result of her diligent efforts, Moore had the good fortune of securing new
employment.
Based on the substantial credible evidence in the record that appellant was not
seeking work pursuant to N.J.S.A. 43:21 -4(c)( 1) during the relevant time period, and
that such a determination was not arbitrary, capricious, nor an abuse of discretion,
we affirm the decision Moore was ineligible for benefits from November 1, 2015
through February 6, 2016.
Affirmed.

f hereby certify that the foregoing
is a true copy of the original on
file in my office.
CLERK OF THE API

a

DIVISION

8

A-4382-17T4

Additional material
from this filing is
available in the
Clerk's Office.

